<html>
<title> - THE IMPACT OF U.S. WATER PROGRAMS ON GLOBAL HEALTH</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





           THE IMPACT OF U.S. WATER PROGRAMS ON GLOBAL HEALTH

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2013

                               __________

                           Serial No. 113-98

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE

82-312 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Aaron A. Salzberg, Ph.D., Special Coordinator for Water 
  Resources, U.S. Department of State............................     4
The Honorable Christian Holmes, Global Water Coordinator, U.S. 
  Agency for International Development...........................    16
Mr. John Oldfield, chief executive officer, WASH Advocates.......    33
Mr. Malcolm Morris, chairman, Millennium Water Alliance..........    44
Mr. Buey Ray Tut, executive director, Aqua Africa................    52

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Aaron A. Salzberg, Ph.D.: Prepared statement.....................     7
The Honorable Christian Holmes: Prepared statement...............    18
Mr. John Oldfield: Prepared statement............................    35
Mr. Malcolm Morris: Prepared statement...........................    47
Mr. Buey Ray Tut: Prepared statement.............................    54

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71

 
           THE IMPACT OF U.S. WATER PROGRAMS ON GLOBAL HEALTH

                              ----------                              


                        THURSDAY, AUGUST 1, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2255 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And I want 
to wish everybody a good afternoon, and thank you for being 
here, especially to our very distinguished witnesses.
    Two years ago, our subcommittee held a hearing on U.S. 
assistance programs to Africa and found that the unitary water 
budgets line item had been zeroed out. Needless to say, some of 
the members of our subcommittee, including myself, were at 
first astonished that such an important segment of our foreign 
policy was seemingly being abandoned, and we know that's not 
the case. We were assured that the money for international 
water programs did not disappear, but were merely redistributed 
among several programs.
    Today's hearing is intended to look at how effective that 
strategy has been, how our Government's international water 
programs can be implemented in the future, and how we can be of 
additional assistance in the Congress in ensuring that that is 
done.
    Water is undeniably important to health, and the very 
survival of human beings. Water comprises more than two-thirds 
of the human body weight, and without water we would die in a 
matter of days.
    The human brain is 95 percent water, blood is 82 percent 
water, and our lungs are 90 percent water; a mere 2 percent 
drop in our body's water level can trigger signs of 
dehydration, including fuzzy short-term memory, trouble with 
basic math, and difficulty focusing on smaller print, such as 
on a computer screen. Water is important to the mechanics of 
the human body. The body cannot work without it, just as a car 
can't work without gas and oil.
    It is, therefore, troubling that so many people in the 
world do not have ready access to clean water. According to the 
2012 report released by the World Health Organization and the 
United Nations Children's Fund, roughly 780 million people 
around the world lack access to clean drinking water, and an 
estimated 2.5 billion, roughly 40 percent of the population, 
are without access to safe sanitation facilities. Tainted water 
and sanitary practices are at the root of many health problems 
in the developing world, and are hindering U.S. and 
international global health efforts.
    I know for a fact, and it's still one of the correctable 
problems in the world, that one of the leading killers of 
children remains to be diarrheal disease traced back to water-
borne disease. In my second term, back in the early 1980s, I 
actually authored the reauthorization and expansion from $25 
million to $50 million of what was known as the Child Survival 
Fund, and one of the four pillars of that fund at the time was 
oral rehydration salts to help those children who were dying a 
needless death attributable the diarrheal disease.
    In a June 27th hearing on neglected diseases, our 
subcommittee heard testimony on the WHO list of 17 neglected 
tropical diseases, three of which are primarily water-borne. 
However, there are dozens of other diseases transmitted through 
contaminated water, including botulism, cholera, dysentery, 
hepatitis A, polio, and SARS.
    WHO estimates that more than 14,000 people die daily from 
water-borne illnesses which cause more than 1 billion cases of 
intestinal worms, 1.4 million child diarrheal deaths, and 
500,000 deaths from malaria. Moreover, water is at the root of 
international conflict.
    A growing number of conflicts are exacerbated by limited 
access to water. Increasing demand and greater variability in 
rainfall can inflame tension, such as the concern Egypt has 
expressed, about the impact of the Nile's flow to Ethiopia's 
proposed Grand Renaissance Dam.
    Although water circulates, returning to availability 
through various natural processes such as evaporation, clouds, 
and rain, only about 2.5 percent of the planet's water is fresh 
rather than salty, and less than half the amount is available 
in rivers, lakes, or underground aquifers.
    Pollution consumes some of the available water from 
industrial or agricultural runoff. An estimated 40 percent of 
U.S. rivers, and 40 percent of U.S. lakes are considered unfit 
for fishing, swimming, or drinking. We are in a developed 
country with significant resources.
    Developing countries too often don't keep adequate track of 
the extent of pollution, nor do they have the ability to 
adequately do something about it. Other constraints on the 
global supply of water include efforts to privatize water 
systems in the developing world, and the encroachment of salt 
water into fresh water systems.
    The challenges to insuring that clean water is available to 
people in developing countries are serious. That is why new 
legislation is being developed: The Senator Paul Simon Water 
for the World Act of 2013. Mr. Blumenauer has already joined us 
from out there on the panel, and his bill will strengthen the 
2000 act.
    The new bill calls on USAID to continue to observe the 
Water for the Poor Act of `05 in implementation of its water 
and development strategy. The bill would elevate the positions 
of our first two witnesses today, the U.S. Global Water 
Coordinator and State Department Specialist Coordinator for 
Water Resources to report directly to the Administrator of 
USAID and Secretary of State respectively. Among other 
provisions, the bill requires local consultation on water 
management and usage, and encourages local contracting and 
water sanitation and hygiene projects.
    I am glad to be a co-sponsor of this legislation because 
water is life and we must be as efficient as possible in our 
efforts to provide clean water to those in need worldwide.
    In addition to the leading administration officials on 
International Water Programs we have three private panel 
witnesses who I will introduce at the appropriate time. I'd 
like to yield to Mr. Blumenauer if he has any comments.
    Mr. Blumenauer. Thank you very much, Mr. Chairman. I deeply 
appreciate your having this hearing today to build a record, as 
I appreciate your longstanding interest and leadership in this 
area. You were original co-sponsor of the Water for the Poor 
Act and original co-sponsor in the new act, and I really deeply 
appreciate your continued advocacy and understanding. And you 
laid out the case I think in a compelling way.
    The vast majority of the world's water is salt water. Most 
of the 2\1/2\ percent that's left is locked at least for the 
time being until global warming does otherwise in Iceland, the 
Arctic, and the Antarctic. And when you factor out the water 
that's used for industry, for agriculture, basically it's \1/
10\th of a percent of all of this water that's available for 
people to drink.
    I cannot say enough about your choice of witnesses. It's 
been my privilege to work with them in the formulation of this 
legislation. With Mr. Holmes, Dr. Salzberg, you've got people 
who are on point, who've helped us get to this point. I love 
the release of the USAID Water and Development Strategy in May, 
and the broad bipartisan support. The people that were there, 
and the NGO community, the second panel with Malcolm Morris, 
John Oldfield. The NGO community has been particularly focused 
helping us understand and carrying this message out around the 
world.
    The last time I was sitting behind the dais with Malcolm on 
the other side of the witness table before this very committee 
was just a few months before Congress passed and President Bush 
signed into law the Water for the Poor Act.
    I hope today with your help and leadership, Mr. Chairman, 
and the advocacy and insight of the people that are here we're 
going to be able to repeat that success with the Water for the 
World Act. And I must say how much I appreciate working with my 
friend and colleague, Ted Poe, who has a real passion for this.
    It is an opportunity for us to prove that politics stops 
with water. We used to say it stopped at the water's edge, but 
here we ought to be able to show that politics does stop with 
water. Our colleagues, Nita Lowey and Kay Granger, in one of 
the most difficult budget environments imaginable with strained 
resources have been able to produce legislation that actually 
keeps intact the gains that we have made.
    I am very pleased with the progress we've made, deeply 
appreciate your attention and focus on it, and with our friends 
I think we can assume a role that's going to make a big 
difference for women and children around the world.
    I close by noting your advocacy for the protection of women 
and children, your concern about human trafficking. And today 
there will be 200 million hours that will be spent by women and 
girls collecting water. And it's not just time that they won't 
spend in school or working to support the family; they are at 
risk of attack, physical, sexual assault. Our being able to 
strengthen the opportunity to have that gift that most of us 
take for granted is going to help protect the integrity of the 
family, strengthen them, and allow us to live up to our ideals. 
Thank you so very much.
    Mr. Smith. Thank you to my distinguished colleague and lead 
author of this legislation. I do want to thank him for his 
passion to try to insure that everyone on this planet has 
access to safe water, and I appreciate it, we all appreciate 
it.
    I'd like to yield to my good friend and colleague, Mr. 
Marino.
    Mr. Marino. I have no opening.
    Mr. Smith. Thank you. I'd like to now introduce our 
distinguished witnesses. Beginning first with Dr. Aaron 
Salzberg, who serves as Special Coordinator for Water Resources 
at the Department of State in the Bureau of Oceans, 
Environment, and Science Affairs. He is responsible for 
managing the development and implementation of U.S. policies on 
drinking water and sanitation water resources management and 
transboundary water issues.
    Dr. Salzberg has been the lead representative or the lead 
water advisor for the U.S. at several major international 
events. He also leads the Department of State engagement on 
transboundary water issues in many regions throughout the world 
where water is or may become a source of tension or conflict.
    We'll then hear from Mr. Christian Holmes who was 
designated USAID's Global Water Coordinator in February 2011. 
He is the senior representative within USAID responsible for 
advising the Administrator on water matters and for 
coordinating the implementation of key water program and policy 
initiatives including USAID's Water Strategy.
    Mr. Holmes has extensive public and private sector 
experience in international economic development, humanitarian 
assistance, and environmental protection sectors. He has also 
worked in the field supporting USAID missions in Pakistan, 
Yemen, Bangladesh, and Ghana on water and food security issues.
    So, Dr. Salzberg, if you would begin.

STATEMENT OF AARON A. SALZBERG, PH.D., SPECIAL COORDINATOR FOR 
           WATER RESOURCES, U.S. DEPARTMENT OF STATE

    Mr. Salzberg. Thank you, Chairman Smith and other members 
of the committee for the opportunity to appear before you today 
and discuss our work on water. Especially grateful for the 
opportunity to testify alongside my close friend and colleague 
from USAID, Chris Holmes. And, of course, thank you, 
Congressman Blumenauer for your kind words and your 
longstanding support and dedication to these issues.
    If you will allow me, Mr. Chairman, I would also like to 
submit my full remarks for the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Salzberg. Thank you.
    Mr. Chairman, you and Congressman Blumenauer, I think 
you've already made the case. Both at home and abroad water 
security is becoming one of the great challenges of our time. 
The lack of access to safe drinking water and basic sanitation, 
poor water resources, increase in hydrologic variability from 
climate change is a threat to people's health, to the 
environment, to economic growth, to energy and food security, 
and to the peace and security of people throughout the world.
    To address these challenges, the United States is working 
to increase access to safe drinking water and sanitation, 
improve water resources management, and increase the 
productivity of water resources. We're also working to mitigate 
tensions associated with shared waters in many places 
throughout the world.
    We do this in five ways. First, we build capacity. 
Countries and communities must take the lead in securing their 
own water futures, and we must give them the tools to succeed. 
This means building the knowledge and skills at all levels to 
understand and respond to water and sanitation challenges.
    Second, we engage diplomatically. The United States is 
working to raise international awareness and encourage 
countries to prioritize water and sanitation needs in national 
development strategies, plans, and budgets. We're also working 
in key regions and throughout the world diplomatically to 
strengthen cooperation.
    Third, invest in infrastructure. As one of the world's 
largest bilateral donors in water and sanitation, the United 
States invests in infrastructure in developing countries to 
meet basic needs and to manage water resources.
    Fourth, science and technology. While there is no silver 
bullet, science and technology can make a huge impact. We're 
working to incentivize innovation and the development of new 
technologies that can achieve results at scale.
    Fifth, partnerships. We can't solve this problem alone. We 
work closely with a range of international partners and more 
than 20 U.S. Government agencies and departments. Partnerships 
like the recently launched U.S. Water Partnership can tap into 
the much needed knowledge and experience, and resources from 
the public, private, not-for-profit partners from across the 
United States and bring these resources to bear on these 
international challenges.
    As the result of U.S. engagement on water and sanitation 
we've seen real changes. Since 2006, more than 34 million 
people worldwide have gained access to improved drinking water 
supplies and more than 16 million people to improved sanitation 
facilities.
    In Fiscal Year 2012 nearly \3/4\ths of all U.S. support for 
water went toward drinking water sanitation and improving 
hygiene, and nearly 30 percent of that support went to 
countries in sub-Saharan Africa. This trend has been further 
reinforced by the recent launch of USAID's first ever water and 
development strategy which makes reducing water-related disease 
a strategic priority for the agency.
    The United States has also played a key role in shaping the 
way in which the international community approaches water and 
sanitation challenges. We've been the driving force behind 
expanding approaches to treating and safely storing water at 
the household level, developing water quality guidelines, and 
strengthening institutions like the African Ministers Council 
on Water.
    In recent years, the Department of State has become 
increasingly engaged in promoting cooperation over shared water 
resources. These are not easy problems to solve. Transboundary 
water issues are often viewed through a national security lens. 
They're embedded within a much broader set of economic, social, 
and geopolitical issues. In some cases water, rivers, lakes, 
ecosystems are closely tied to a sense of national identity, 
and development of these resources is seen as a sovereign 
right. Responding to these challenges requires patience, 
flexibility, and closely coordinated diplomatic and development 
efforts.
    With this in mind, we launched the shared waters 
partnership in 2010. This partnership serves as a multi-donor 
platform to support political dialogue in regions where water 
is or may become a source of tension or conflict. And we've 
used this mechanism to support regional discussions on the 
Nile, Niger, Okavango, many other regions throughout the world. 
These are just a few examples of what the United States is 
doing and how we believe that U.S. leadership on water is 
making a measurable difference in lives throughout the world.
    Mr. Chairman, thank you again for this opportunity to 
testify. We look forward to continuing our work with the 
members of the subcommittee, USAID, other U.S. Government 
agencies and other stakeholders here in the room to improve 
water resources management, and to provide safe water and basic 
sanitation to those currently without. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Salzberg follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Holmes, please proceed.

   STATEMENT OF THE HONORABLE CHRISTIAN HOLMES, GLOBAL WATER 
     COORDINATOR, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Holmes. Thank you, Mr. Chairman.
    Chairman Smith and members of the subcommittee, thank you 
for the opportunity to testify today, and I ask that my full 
written statement be submitted.
    Mr. Smith. Without objection, so ordered.
    Mr. Holmes. Thank you. And I will have a few core points 
from my testimony and look forward to your questions.
    I should say at the outset both you and Congressman 
Blumenauer went right to the core of not only the magnitude of 
the problem that we deal with, but some of the aspects of it 
that have to be addressed. You referenced the importance of 
dealing with diarrheal disease and it is, indeed, huge with 
children, that we feel that we can do a lot to address and 
mitigate through our water programs. And Congressman 
Blumenauer, you addressed the importance of dealing with water, 
and that in many ways is a critical element on the new USAID 
Water Strategy. And your reference to how little water there is 
on this planet goes to the core of our approaches targeted 
around water efficiency to make sure that water is used 
effectively for health and for food security.
    I've had the privilege of working for a long time in the 
government, started my career on this committee a long, long 
time ago, and this problem of water tops anything I've ever 
dealt with in my career. The magnitude is so enormous and the 
cost to human life is so dear.
    You cited, Mr. Chairman, some of the key statistics that 
really surround the problem, and rather than repeat them which 
you've already addressed, I think I'll move more directly to 
save some time also for you into some other aspects of my 
testimony.
    I would like to note that in addition to my friend, Dr. 
Salzberg, we have a lot of friends in this room. This is a 
great water family that we're dealing with from the U.S. 
Government agencies, the private sector, the NGO community, and 
they've all helped get us to this point. And the point in many 
ways is the successful implementation of the Water for the Poor 
Act. I think you've made great progress.
    To that end, from Fiscal Year 2006 to 2012 we've reached 
close to 50 million people through our WASH programs. And I 
think encouragingly, we're seeing increased funding moving to 
our water programs to Africa. From 2006 to 2012 we committed 
about $2.4 billion in our water programs, and about $848 
million of that amount went to Africa in that top geographic 
area. And when you consider all the other competing demands 
geographically for water, this is a good sign in terms of the 
direction that we're moving in.
    Mr. Chairman, Congressman Blumenauer noted the new USAID 
water development strategy and we really appreciate your kind 
comments, Congressman Blumenauer. Thank you about that.
    And to meet the challenges, the strategy and our principal 
goal is to save lives and advance development, but first and 
foremost, is to save lives. And our water programs are really 
targeted on that. And we do it for our water sanitation and 
hygiene programs, and we do it through the guidance to us by 
the Congress through the Water for the Poor Act, also.
    The Water for the Poor Act calls for specific metrics that 
should be set, and so for the first time we set the metrics and 
the strategy to reach over 5 years 10 million people with 
improved access to water and 6 million people with improved 
access to sanitation. The Water for the Poor Act said come up 
with criteria for the countries that you select to prioritize 
through your programming for your water supply, sanitation, and 
hygiene efforts.
    The world is a big place. We have water programs, WASH 
programs in 62 countries, and we have developed that criteria 
consulting carefully with Hill staff on both sides of the aisle 
and the House and the Senate, and now we'll be applying that 
criteria probably in Fiscal Year 2014.
    And I note that in the Water for the World Act which, 
obviously, is just coming out, but as it's been developed it 
calls for many of the things that we've already started to move 
out on listening carefully to our colleagues. For example, the 
Water for the World Act calls for organizational shifts in aid 
to elevate the water team into an office, and we've done that. 
It calls for an elevated leadership position for water, which 
is the Global Water Coordinator position, and we've done that. 
It calls for metrics, and we've done that. It calls for really 
advanced monitoring and evaluation, and we made a commitment in 
the strategy for the first time to really start concentrating 
far more heavily on what happens after the cycle, the 5-year 
cycle of the program of funding closes, and we're going to do 
that.
    So, geographically I've given you kind of a thumbnail 
mention about where we are moving forward in terms of Africa. 
As we move ahead financially we concentrate, and you're 
interested in the accounts, I'm prepared to discuss that when 
you wish, really in four areas through our WASH funding and 
funds which are provided to us through the directed 
appropriations pursuant to the Water for the Poor Act, and 
that's 100 percent devoted to WASH. And, at the same time, we 
also fund our water programs through our Water Resources 
Management Programs, our Water Productivity Programs like 
support food production, and our International Disaster 
Assistance Programs. And I think the good news is that while 
the directed appropriation has been at the level of about $315 
million, which we have met, we've also exceeded that for the 
WASH funding by linking, you know, our WASH programs and other 
ongoing programs in the agency. So, to that end, when we have 
HIV/AIDS programs, well, it doesn't make a lot of sense to be 
giving people medicine if they lose the medicines through 
diarrhea. And that's where WASH makes such an important 
contribution. If we have nutrition programs, it doesn't make a 
lot of sense to have nutrition programs if you lose your 
nutrients because of diarrhea, so we make that coupling.
    So, this is a quick kind of tour de force overview, and I 
look forward to your questions. Thank you.
    [The prepared statement of Mr. Holmes follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very much, Mr. Holmes.
    Let me begin the questioning, and we'll have a second round 
if others would like it.
    But let me just begin first of all with, you know, the Safe 
Drinking Water Act of 1974, as you know, the landmark law that 
insures that Americans and anybody living in the U.S. has 
access to safer water. It affects 160,000 public water systems 
in the U.S. It sets national health standards for drinking 
water. And I was in Congress in 1996 when we increased that 
capability; that law was expanded to include Source Water 
Protection, Operator Training, and today EPA has about 90 
contaminants listed with maximum containment levels or MCLs, 
including microorganisms, disinfectants, inorganic chemicals 
including copper, cadmium, arsenic, lead, mercury, organic 
chemicals including benzene, carbon tetrachloride, dioxin, and 
radionuclides.
    My question would be the United States more than Europe, I 
believe more than any other nation on earth, has written the 
book on how to--and we're still not there. It's always a work 
in progress. More things ought to be on that list of 90 plus, 
but we've written the book on how to make our water safer. And 
I'm wondering how you interface with EPA, and how you take the 
lessons learned and, hopefully, pass like a baton and mentor, 
frankly, some of those who have emerging systems.
    Mr. Holmes. So, I worked at EPA as the Deputy for 
Enforcement there, and I dealt a lot with the Safe Drinking 
Water Act, and the Clean Water Act which, of course, one can 
talk about for a long, long time.
    So, an important element of our work, particularly as it 
relates to this category of Water Resources Management is to 
really help build up the appropriate governance, and policy, 
and regulatory structure in countries. But, at the same, you 
know, we really recognize that utilities, just as they play 
here in the United States, really play a really critical role 
in economic development, and particularly in Africa. And we 
have a major program underway throughout Africa to concentrate 
on the strengthening of utilities, not just from the 
perspective of strengthening, you know, the manpower and 
staffing, but also improving the capacity to be able to pay for 
themselves to the extent a utility can. And, also, strengthen 
up their technical capacity to recover losses from water, and 
those losses tend to come from two places. They tend to come 
from either, you know, improper engineering, bad piping, some 
sort of technical flaw, or they come from water being stolen 
and then being sold off on the side.
    So, it's a really important question you ask, and I think 
as we go farther and farther ahead with our programs this kind 
of work is going to become very important.
    Mr. Smith. Especially as Africa industrializes and more of 
these chemicals leach into aquifers.
    Mr. Holmes. And it becomes more urban.
    Mr. Smith. Right. Yes, Dr. Salzberg.
    Mr. Salzberg. I'll be honest, I think the question we get 
most often, I, the Secretary, whenever they're talking and 
talking about water isn't about give us your money, it's tell 
us how you solve this problem. More than anything else, I think 
developing countries are craving the knowledge and expertise of 
the United States from the governmental agencies, the non-
governmental sector, the private sector. I think they 
understand that we have a very decentralized network of water 
supply systems here in the United States, of waste water 
treatment here in the United States. They want to know how we 
make that work from a regulatory perspective, from a policy 
perspective, from a technical perspective, from a financial 
perspective, they want to see all that.
    We have an interagency team which we chair. We meet once a 
month. It includes representatives from all the U.S. agencies 
that work on water, and departments that you probably didn't 
think did much work on water. NASA, for example, is a very 
active member of our group because some of the remote sensing 
tools that they bring to bear on some of these challenges. And 
that's really our brains. They're the folks who tell us what 
makes sense for us to do as we approach some of these policy 
issues internationally; very, very important.
    We just launched the U.S. Water Partnership, which I 
mentioned. You know, the idea behind that partnership is to 
address the exact challenge you mentioned, which is can we 
create a portal where we can bring the best and the brightest 
of the United States, not just from the governmental sector, 
but from the private sector and everywhere else to bear on this 
challenge in a meaningful way for people from developing 
countries. That's the idea behind that partnership. We hope it 
succeeds and we can really take advantage of both the expertise 
that you have in your districts, but the expertise that we have 
here in the room.
    Mr. Smith. If I could ask you, we will have the testimony 
from the Millennium Water Alliance, faith-based, obviously. In 
all things that USAID does, I think it plays a critical role. 
Do you try to be inclusive of those faith-based initiatives? 
And, also, if I could ask on unmet need, if you had more money, 
what could you do? The amount of money that you do have, how 
adequate is it? And then I'll go to Dr. Bera.
    Mr. Holmes. So, we are--we work very closely with the 
faith-based organizations. I began working in the Office of 
Foreign Disaster Assistance with these organizations a long 
time ago and we continue it. In fact, they were very active in 
the launch of our water strategy this year, and they're really 
just a strong ally. And one thing I've noticed what we have in 
common with really all faith-based organizations is that from 
my experience, their first goal is to save human life. And 
that's the first--that's the lead-off in this water strategy, 
so we're very much linked on that.
    In terms of more money well, obviously, you know, anybody 
from the administration is going to be very careful about 
indirectly asking for more money at a cycle.
    Mr. Smith. What's not being done? Should additional 
resources have been available, or what are we not achieving?
    Mr. Holmes. Well, I think that the magnitude of the problem 
is so huge when you're dealing with the numbers that you were 
talking about; 2 billion people without adequate sanitation on 
the planet, and 800 million of them still in need of adequate 
water.
    I don't want to dodge your question in the sense of saying 
we don't need more money. I mean, everyone, obviously, needs 
additional resources, but I think the real question here is how 
do you more effectively leverage what you've got. That's going 
to be the art form, I think, going ahead. And that is why we're 
placing a huge amount of emphasis on the kinds of partnerships 
we develop so as to be able to draw more capital into these aid 
projects because what's going on in foreign investment, or 
what's going on in our aid programs, so how do we basically 
link together?
    We have several projects that we're encouraged, the 
Congress has given us a guarantee authority for loans and we 
leverage that up to help build water treatment facilities, for 
example, in the Manila area, and we do it in such a fashion 
that we bring in Japanese financing to complement it. At the 
same time, we turn to big multinationals. Coca Cola, for 
example, is the largest employer in Africa, so we have a 
partnership with Coca Cola. It's a $30 million partnership. 
It's in about 10 countries, and we seek to develop projects in 
those countries which are sustainable so that one way or 
another over a long period of time they'll stand on their own.
    Mr. Smith. Thank you.
    Mr. Salzberg. I think this conversation shouldn't be 
limited to our money. I mean, the fact is we need to see 
greater investment by the countries themselves, by communities 
themselves. And we need to see full cost recovery of this 
service provision in the country, along with the mobilization 
of local capital. There is liquidity in some of these 
countries; we need to get that money out and working for the 
communities. So, looking at some of the tools and mechanisms we 
can use to leverage some of that local capital, I think, is 
going to be critically important.
    Mr. Smith. Thank you. Dr. Bera.
    Mr. Bera. Thank you, Chairman Smith.
    And, again, let me compliment you on the series of hearings 
that we've had in this committee that really just focus on the 
basic necessities of human life, food security, water security. 
You know, there's no greater need. And I look at this as a 
physician who's worked in public health. I mean, again, if you 
can't address clean water, if you can't address basic 
nutrition, there's not much more you can address after that, so 
it is just--you talked about an effective way of saving human 
life. It is also the most important thing that we can do to 
relieve human suffering.
    You know, my home institution where I'm on faculty at the 
University of California-Davis have the privilege--they have a 
long history of taking our medical students through various 
programs and going into Africa, going into Latin America. I've 
had the privilege of going with some of my medical students 
into Nicaragua and when we go into the neighborhoods with the 
public health nurses there, you know, it starts with just basic 
education, as well, because you could see the food preparation 
facilities right here, and five feet away you see the 
sanitation facilities. So, when we talk about food-borne 
illnesses, when we talk about--it starts with that basic level 
of education. And there's a lot that we can do there. You know, 
certainly we have robust programs in the Peace Corps, we have 
volunteer programs, we have the faith-based initiatives that 
are out there, so pulling all this together so we're all 
working and moving in the same direction.
    Mr. Holmes, we have had the privilege of chatting with Dr. 
Shah from USAID, and also the Millennium Corporation, and we've 
emphasized the shift from just direct donation to capacity 
building in these communities to helping these countries build 
their own capacity. And that, obviously, starts with education, 
but then it also starts with looking for local solutions where 
you're empowering communities in countries with solutions that 
are going to work there in those localities. We're just 
conserving electricity.
    But then you can come up with small-scale solutions that 
work for a particular house or a particular town, but we also 
then want to help develop scalable solutions. So, you know, my 
first question to either one of you would be where you would go 
in terms of funding some of this research and development, but 
doing it in a mechanism that actually works in these developing 
nations.
    Mr. Holmes. So, I think that you go right to the core of 
where we're trying to go. I can tell you've been talking to Dr. 
Shah, so let me answer it in two ways. One, very specifically, 
we develop the kinds of partnerships that are going to support 
really new novel thinking, so we have a partnership with Gates 
called WASH for Life. We seek solicitations for ideas that are 
at a very early stage. We provide individuals with a small 
amount of money so an organization called Sanergy received 
$100,000 grant to develop in urban slums in Kenya ways in which 
to take human feces and convert in into a marketable commodity, 
sanitation marketing. And then we have a commitment that as 
this matures over time we'll try to stay with them.
    And more recently, we've also made probably the largest 
commitment from this fund to support the chlorination of water 
at the point of use, but in such a way that the chlorination 
holds in effect for a while after it's gone into the Gerry Can 
and come home.
    On scale, working with communities is what it's about, 
particularly when you're trying to end open defecation because 
of the relationship of open defecation to many chronic 
neglected tropical diseases which are so troubling now that 
they're exceeding the capacity of antibiotics to treat them 
completely, and hence the importance of these preventative 
actions. So, in Ethiopia we've had a program heavily based upon 
community participation that successfully eliminated open 
defecation by 2.8 million people in the Ampara region. That's 
the kind of scale we have to get.
    Mr. Bera. Thanks. Dr. Salzberg.
    Mr. Salzberg. Yes, I think we have to do a better job 
talking to a lot of these companies about how we look at local 
solutions, and getting those into practice, and working at 
scale. And there's some great innovators along those lines that 
exist.
    I think one of the important things that we can do from a 
U.S. Government side could be along technology verification. 
We've seen this where CDC, the Centers for Disease Control, has 
done a lot of work to look at, as Chris is mentioning, some of 
these household approaches to disinfecting and safely storing 
water, and proving the efficacy of these approaches in a 
developing country context and whether or not these things can 
work through a market-based approach to achieve results at 
scale. I think those are important roles that the expertise of 
the U.S. Government might be able to help with.
    Mr. Bera. Great. Well, again, I applaud you, and I should 
note it's great to see my friend, Congressman Blumenauer, 
sitting in this committee. Thank you.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Yes, thank you, both of you. What I would love 
to hear from you is as you are--you mentioned the matrix that 
you're looking at from a standpoint of project-specific, where 
they are, what we do. How do you think we can improve on that 
particular model, or is there anything from a legislative 
standpoint that we can help, from a reporting standpoint, or 
anything else that would give you additional tools to make 
those assessments on where to place the assets. We have a 
limited--as you mentioned, it's just a huge task, and so is 
there anything legislatively that we can do? And then from a 
matrix standpoint, how do you decide where we invest next?
    Mr. Holmes. Well, you know, you kind of did it because when 
you passed the Water for the Poor Act, you told us that you 
really had to develop criteria, and you had to make them 
public, and you had to engage the stakeholders in the process, 
so that was extremely helpful. And, you know, you can't get 
anywhere without a clear statement of objectives and plan. And, 
quite candidly, until we developed the water development 
strategy we didn't have that, and that impetus came from the 
Water for the Poor Act.
    I think where you can always be helpful is really in the 
understanding of the complexity of this problem. It just does 
not lend itself to easy fixes. And as we learn more about the 
sustainability side of this issue; namely, it's one thing to 
say you've provided water, and sanitation, and hygiene, the 
acronym WASH, to people, and to say we've given these services 
to 10,000 people, but it's another thing to try to figure out 
what happened to those 10,000 people over a 15-year period. And 
that seems to be the question that people really want answered 
more and more. That takes time, and it takes resources to do 
that internally.
    Mr. Salzberg. You know, I think we've got the push down. I 
think we need to see more pulling. And I think you can be very 
helpful in that regard. Your colleagues internationally--as 
parliamentarians you have a very unique perspective within your 
own districts about how you deal with some of these challenges. 
Sharing some of those experiences with your colleagues 
internationally can do a lot in both raising awareness and the 
importance of these issues for them, and creating the kind of 
demand signals, and co-investments that we need to see to 
insure the sustainability of the work that we do on the ground. 
So, I think there's a large role that you can also play not 
just on the side that you mentioned, but also on the side of 
really helping create demand internationally.
    Mr. Meadows. So, more on the international side of it where 
we go out and stress not only the importance, but the dire 
consequences if we don't do this. Is that what you're saying?
    Mr. Salzberg. Well, I think so. And I think you all come 
from districts that have personal experiences with this, so you 
have very appropriate personal stories on how this--and I don't 
just mean from a drinking water and sanitation perspective. You 
know, it's the relationship between energy and water.
    Mr. Meadows. Right.
    Mr. Salzberg. Food and water, all the other complications 
that you guys are dealing with.
    Mr. Meadows. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you very much.
    [Off microphone comments.]
    Mr. Blumenauer. I deeply appreciate your doing this. I just 
wanted to follow-up on Congressman Meadows' point about the 
resource. I mean, these folks are being very diplomatic, but 
what we just heard here is despite the effort of the focus, 
$2.5 billion that's been cobbled together from a variety of 
different areas, we've just moved the needle a little bit. And 
in some cases, like in the area of sanitation we're at risk of 
falling behind because of rapid urbanization. But the key here, 
and part of what we're trying to do with the new legislation is 
there are lots of ways to leverage money that's already being 
spent.
    Poor people around the world are paying a huge cost for 
poor water supply now that they buy privately, or they pay with 
their time. If we can help with credit enhancement, a tiny 
shift of some of our aid dollars, we have an opportunity to 
help them get more out of their resources, save lives, and 
build friends for us. And we look forward to working with your 
committee, if possible, to just zero in on this with the 
legislation that's going forward because it's coming to you.
    Mr. Stockman. I can also say on a firsthand basis, I was in 
Brazzaville drinking, what I thought, was bottled water, but I 
found out the locals recap it and seal it. I found that out in 
a very personal way.
    Mr. Smith. The subcommittee will stand in recess, and again 
I thank you for your patience.
    [Recess.]
    Mr. Smith. The subcommittee will resume this hearing, and I 
can't apologize enough for that length of voting, so please 
accept my apology.
    Let me just ask a question with regards to the ratio of 
wells to people. Obviously, it's a big issue here, how deep do 
they go, how clean, as opposed to a public water system? And if 
I'm not mistaken, the definition for a water system here is 15 
or more people that are served. But what is the situation in 
sub-Saharan Africa with regards to water wells versus--you 
know, where are we putting our big emphasis to build out what 
kind of capability, or both?
    Mr. Holmes. In some ways some of those problems are 
analogous--pardon me, Mr. Chairman. In some ways some of the 
problems are analogous to what we're facing in different parts 
of the United States; namely, rapid depletion of groundwater, 
and the salinization of groundwater. So, those become two 
extremely important considerations. And related to where you 
locate the wells and related to the sustainability of the wells 
are the programs we put in place on water catchment, so we find 
that our water catchment efforts and our wells efforts are 
closely interrelated. And I think in some ways one of the 
iconic projects related to water catchments which relates to 
water supply and wells is the Productive Safety Net Program in 
Ethiopia. And this is a project that I think you're going to 
hear more of in the future that dealt with anticipating major 
climatic change in Ethiopia, identifying a population of 7 
million people that would be adversely affected by significant 
climate change, making a bet that it's going to occur, and then 
working with the population to put in adequate water catchment 
and adequate water supply, sanitation, and hygiene. So, the 
issue of the location of the wells relates to the issue of 
basically insuring that there's adequate water in the area in 
which you're going to be drilling.
    I guess the second part about the challenge of wells is to 
be artful in where you're putting the wells in the communities 
you're working with so you're not inadvertently causing any 
conflict between agrarian and pastoralist related to the well 
sites. And, again, in Africa we're building up an increasing 
amount of expertise working with the NGO community on how to 
appropriate site the wells.
    I think the third thing related to wells relates very 
closely to the issue of water and women, and we're finding that 
supporting community organizations that take ownership and 
responsibility for the drilling and the operating of the wells 
becomes absolutely essential, and it becomes essential so as to 
minimize the amount of time that women take, and the risks that 
they incur in search of water from wells that may not be in 
that good shape but are very distant and prevent tremendous 
danger to them.
    You know, in terms of a ratio of water wells to people, 
that's a tough one. I'm not quite sure I have a good answer for 
you on that, but I can look into it in more detail.
    Mr. Smith. Okay, but what about in the public setting, I 
mean, the public water works. Usually we define it 15 or more 
people are served by it. Isn't that correct?
    Mr. Holmes. Well, there are going to be more people than 15 
that are going to be having access to wells whether it's urban 
or rural. I can assure you on that.
    Mr. Smith. Can I just ask you, John Oldfield, the CEO of 
WASH Advocates who will be testifying, in his fourth 
recommendation I just would love your feedback on it, and I'm 
sure he'll elaborate on it. But it says, ``[p]rovide more 
effective oversight as to where and how these funds are being 
invested. We are concerned,'' he goes on, ``that many of these 
funds are not going to countries and communities where the need 
is the greatest for safe drinking water and sanitation.'' How 
do you respond to that?
    Mr. Holmes. So, when we developed the water strategy one of 
the big efforts was to develop the criteria that would relate 
to the countries that we would select for our water programs 
and do it on a priority basis. And the criteria which we laid 
out in the water strategy lays out two components. One 
component is need, and that would be things like childhood 
deaths due to diarrhea which, of course, relates to 
inadequately treated water. And the second criteria was 
opportunity; namely, the ability of a country to actually 
manage public water systems effectively. And we weighted the 
criteria so it was strongly weighted toward need. And we plan 
to basically prioritize our countries around that criteria 
which is heavily need-based, and then govern the allocation of 
our funds starting in Fiscal Year 2014 as it relates to water 
supply, sanitation, and hygiene to meet those criteria. And 
that's a huge departure for us, Mr. Chairman.
    Mr. Salzberg. And I think if you look at the overall trend 
since the passage of the Water for the Poor Act in 2005, I 
mean, you're seeing significant changes in our investments, you 
look at the DA accounts; and, Chris, you can answer this a 
little bit better than I can, where I think when I joined in 
2005, the first accounting 2005-2006 it was $16 million of DA 
in Africa for drinking water supply and sanitation. And that 
number is now well over--it's peaked at over 100 at some times, 
so you are seeing trends I think in the right direction. I 
think you're seeing the right prioritization of the Water for 
the Poor strategy. And a major step forward with USAID's water 
and development strategy.
    And I think you're also seeing, when you look at the 
Millennium Challenge Corporation and the significant 
investments that they're now starting to make in many countries 
in Africa, as well. This is a major contribution to some of 
those challenges.
    Mr. Smith. Thank you. I hope the other members get back, 
but just--I guess I'm pretty much done. I want to thank you so 
much for your patience. I thought the other members would 
return.
    Mr. Holmes. Thank you.
    Mr. Smith. And, again, I apologize for that delay. I look 
forward to working with you going forward.
    Mr. Holmes. We do, too. Thank you, Mr. Chairman.
    Mr. Smith. Thank you both gentlemen. Thank you.
    We welcome our second panel to the witness table. Beginning 
first with Mr. John Oldfield who leads the efforts of WASH 
Advocates to increase awareness to the global WASH challenges 
and solutions, and to increase the amount and effectiveness of 
resources devoted to those solutions throughout the developing 
world.
    His previous experience with safe drinking water, and 
sanitation, and hygiene comes from founding two implementing 
non-profits in the sector, as well as his tenure as executive 
vice president with Water Advocates, a group dedicated to 
increasing financial and political support for worldwide access 
to safe, affordable, and sustainable supplies of drinking water 
and adequate sanitation.
    We will then hear from Mr. Malcolm Morris, who serves as 
chairman of the Millennium Water Alliance, a group of American 
non-profit organizations that he founded in response to a call 
from U.S. administration officials under his leadership.
    The Millennium Water Alliance is leading an effort to bring 
potable water and sanitation to 500 million people by 2015. He 
is chairman emeritus of Living Water International, which in 
1990 began drilling water wells in Kenya for hospitals, 
schools, orphanages, churches, and communities, and is now 
operating in more than 20 countries having completed projects 
providing water to more than 10 million people on a daily 
basis.
    And then we'll hear from Mr. Buey Ray Tut who is executive 
director of Aqua Africa. He was born in a small village in 
South Sudan, and when he was 8-years old his family fled to 
Ethiopia to escape the civil war in Sudan. His father was 
jailed in Ethiopia for political involvement, and after his 
father's release from prison his family was granted political 
asylum in the U.S., and his family is settled in Nebraska.
    He co-founded Aqua Africa at the age of 21, and has served 
as a trustee for the South Sudan Community Association.
    Mr. Oldfield, if you could begin.

 STATEMENT OF MR. JOHN OLDFIELD, CHIEF EXECUTIVE OFFICER, WASH 
                           ADVOCATES

    Mr. Oldfield. Thank you, Chairman Smith and distinguished 
members of the subcommittee for the opportunity to provide 
these remarks which are a summary of my written statement 
submitted earlier.
    Let me express, first of all, my gratitude to the 
subcommittee for your support for safe drinking water, for 
sanitation, for health, and related development challenges over 
the years. I'd also like to quickly applaud the efforts and 
commitment of my co-panelists here and, frankly, everybody in 
the room on behalf of this issue, and also acknowledge and 
thank the dozens of individuals who helped me crowd source this 
testimony, Mr. Chairman.
    Imagine this, and you don't need to work hard to imagine 
this based on how this hearing has gone so far today. A woman 
spends the first 3 hours of her day wandering through 
treacherous terrain to find a 20-liter bucket of dirty, filthy 
water to spend the next 3 hours of that day hauling that dirty 
water back on her head, not knowing if that water is going to 
make her children sick when she gets it back home. She may not 
have even named her youngest children because so many people in 
that community die before the age of five because of unsafe 
water and inadequate sanitation.
    Neither she, nor her children, have a bathroom, so they 
suffer the indignity, the vulnerability, the physical 
vulnerability that the subcommittee members have discussed 
today through open defecation. Here in the U.S. we haven't 
lived under these conditions for a long time, but this is a 
challenge faced by hundreds of millions of people around the 
world every day.
    This is a grave challenge, but it is a solvable challenge. 
And, most importantly, if I could leave you with one message, 
it's a challenge that's being solved in Africa, in Asia, in 
Latin America as we sit here at this hearing every day.
    The solutions, to get to some of your earlier questions, 
are often quite simple. These are wells, these are latrines, 
these are hand washing stations equipped with bars of soap, 
these are rainwater harvesting schemes. The most transformative 
of these solutions are those which focus on strengthening and 
building capacity of local communities to solve their own 
challenges.
    I'd like to just quickly highlight a couple of very recent 
successes in the global water sector and blend in my humble 
requests for the committee to consider. First of all, as you 
know, USAID has recently launched their first ever 5-year water 
and development strategy. We ask that your subcommittee 
continue to provide effective oversight as to where, and as to 
how these funds are being invested. A couple of specific 
suggestions that you really preempted with your earlier 
questioning: I urge USAID to continue to focus on the world's 
poorest communities and countries. And, secondly, to leave 
behind not simply wells, and latrines, and hardware, but real 
capacity within the local communities to solve their own 
problems with our front end catalytic support.
    Secondly, we ask that you support the Water for the World 
Act of 2013, H.R. 2901. As you know, this was introduced just 
this morning with very strong bipartisan support. Thank you for 
your sponsorship of that bill, Mr. Chairman.
    The point I want to make here is that communities don't get 
water, or they don't get sanitation, much less these health 
benefits, and the education benefits, and the poverty 
alleviation benefits unless these projects function properly 
over the long run.
    Congressman Marino said to me this morning that we are 
taking care of our own when we do foreign assistance well. And 
I asked him if it would be appropriate to relay that message 
here, and he most certainly said yes. This bill, the Water for 
the World Act, is a pivotal next step in the direction of doing 
foreign assistance for water and health well.
    Thirdly, your colleague, Congressman Stockman, recently saw 
firsthand in his visit to the Democratic Republic of the Congo 
how health challenges are restraining economic productivity in 
that country. I would ask you, and I think everybody in this 
room would echo this, to personally visit, in your case visit 
again the developing countries and U.S.-funded water and 
sanitation projects. Nothing trumps that first person 
experience there, and then you can tell a better story than 
anybody in this room can.
    Finally, we urge you to work with your appropriations 
colleagues to support increased funding and, again, oversight 
for development assistance specifically by supporting the $405 
million Fiscal Year 2014 Senate appropriations request for the 
Water for the Poor Act of 2005.
    Now, above and beyond what Capitol Hill is doing, my 
organization, WASH Advocates, is carefully tracking what 
Americans are doing in all 50 states for this issue, and 
probably all 435 congressional districts, as well. Rotary 
Clubs, churches, corporate and private foundations, ingenious 
social entrepreneurs, school kids, primary school kids, 
universities, and myriad non-profits are all active oftentimes 
in partnership with the U.S. Government. And I'd like to 
quickly note Congressman Meadows' interest in public-private 
partnerships, a number of which have been brought up so far 
today and I am happy to provide more details on those.
    If successful, I believe that your and the subcommittee's 
actions will save and improve millions of additional lives by 
increasing the effectiveness of U.S. foreign assistance for 
water, health, and related development sectors, and at the end 
of the day help these countries move toward aid independence. I 
believe that your efforts will catalyze more support from 
American citizens across this country for their complementary 
efforts.
    In conclusion, I would just reinforce things you already 
recognize; this global water crisis isn't just a crisis. This 
isn't just wonky development talk here, this is a real genuine 
leadership opportunity for this country that can help save and 
improve millions of lives around the world, and at the same 
time unite Americans as we're seeing here today with this 
aggressively bipartisan hearing for which I commend you.
    These are uncertain times on Capitol Hill and far beyond, 
but the fact of the matter is none of us spent the first 6 
hours of our day hauling dirty water around on our heads. And 
none of us in this room are worried that our kids are going to 
die from easily preventable water-borne diarrheal disease today 
as we sit here.
    I'd suggest that water-related death and disease have 
historically been unavoidable, and with my colleagues at WASH 
Advocates and throughout this room, I very much hope to 
continue to work with you to make them unacceptable. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Oldfield follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Oldfield, thank you very much for your 
testimony and your concrete recommendations. This does help the 
subcommittee, and members will return and will read your 
recommendations as well as of our other two distinguished 
witnesses, so it really goes a long way. Thank you, and for 
obviously what you're doing out in the field.
    Mr. Morris.

  STATEMENT OF MR. MALCOLM MORRIS, CHAIRMAN, MILLENNIUM WATER 
                            ALLIANCE

    Mr. Morris. Mr. Chairman, Malcolm Morris, and I chair the 
Millennium Water Alliance.
    I want to thank you and your colleagues, your staff 
colleagues for organizing this hearing today.
    From the testimony I've heard from the members of this 
committee, I think everybody is already in agreement in 
recognizing the greatness of this need, and yet the constraints 
that need to be overcome.
    The Millennium Water Alliance represents 13 leading U.S.-
based charities working to achieve safe water, sanitation, 
health and hygiene called WASH for people in developing 
countries. Safe drinking water and sanitation are both life and 
death issues. They are also fundamental issues for women, 
public health, education, and economic and social development.
    Addressing WASH is the most effective step the U.S. can 
take to enhance its reputation among people in the developing 
world, and to work in partnership with our allies to accelerate 
the economic, as well as political development that is 
foundational to true security in our world. Is it working? Yes.
    First, I want to point out our goal is not to complete the 
job of full water and sanitation coverage in any one country, 
but to build the local capacity within that country so that 
these nations finish the task for themselves. And more and more 
of those nations are moving in that direction.
    Among the many activities we conduct in partnership with 
the USAID, our Millennium Water programs where we train local 
organizations you will hear from next which are through WASH 
programming. Through our framework, local and national 
participants meet regularly to share best practices, lessons 
learned, and are held accountable by their peers to country 
standards, transparency, as well as technical effectiveness.
    How do we do all that? First, we meet with governments to 
determine standards for water quality, standards for water 
quantity, country-specific technologies are established so that 
supply parts can be created. You have to have a supply chain. 
And then when you establish the types of implementations that 
are done, indigenous people can be trained in maintenance of 
water points. The last thing that we want to do is to create 
infrastructure dependent upon calling 1-800-USAID for repairs.
    Millennium Water programs use independent monitoring and 
evaluation by specialists to make sure that our progress is 
successful, up to standard, and is achieving desired goals. To 
do that, baseline studies regarding health and education are 
conducted and measurable milestones established to be able to 
determine improvements to life in a community. These findings 
are shared among the participating organizations, as well as 
government officials which are invited to all of those 
meetings.
    USAID has an important role in priming the pump. Perhaps 
USAID's best practice has been in funding an RFA which is 
called a Request for Assistance in countries where the U.S. 
desires to put its best foot forward. Through successful 
deployment of initiatives funded with $11 million by USAID 
since 2009, MWA has been able to attract an additional $16 
million on top of that $11 million of funding to facilitate 
even additional programming. Matching contributions have been 
generated from other donor countries, foundations, 
corporations, and even the countries in which the work is being 
undertaken. That's important.
    Science and technology are included in our training. Many 
lives are saved through oral rehydration techniques. I believe 
the chairman even mentioned that as we began this hearing. 
Through MWA and others, USAID has helped build momentum with 
pilot programs that can be replicated within the country. We 
enable community-funded maintenance programs which must be 
designed as permanent interventions. Community leaders must be 
included in planning and training to meet the water, 
sanitation, health, and hygiene needs for the future population 
growth of their communities wherever we have done water. Those 
communities have attracted a growth in population, people 
moving there who haven't water where they're from.
    USAID should continue the use of RFAs to get underway 
quickly. It allows the implementer such as the MWA to utilize 
their expertise responding to local factors in the areas that 
are being served. Water committees are formed which leads to 
more local empowerment. It's not really the provision of water 
and the community is not called Washington, not called the 
Federal Government, so to speak. Same way at your own home.
    These local committees are formed which leads to more local 
empowerment, and especially among the women. And these 
committees create a learning experience where people elect 
their leaders and learn grassroots democracy. This is also 
fabulous in what USAID has led.
    USAID support of the Millennium Water concept and 
implementing WASH programs within developing countries has 
achieved something, though, beyond the original plan. In 
partnership with American NGOs, USAID has become recognized for 
its leadership in WASH. I remember the day when I walked into 
USAID and they could not find water in their programming in 
their computer systems, anywhere. I'm sure there was some, they 
just couldn't find it.
    Today, totally changed. We have a great team there. The 
policy has been put out, and now here's what we're seeing. 
Other countries, corporations, multilateral organizations are 
calling on the MWA because they've seen what the MWA USAID-
funded projects have done elsewhere, and they say hey, would 
you come and apply your expertise in our country to assist us 
in water programming.
    These are places where USAID is not even being called on 
for a dollar's worth of assistance right now in this area. So, 
because of what USAID has done to prime that pump, we're seeing 
this reputation build and we hope to see that USAID may even 
consider the possibility of capacity building grants to even 
further these opportunities, and low-cost opportunities.
    Included in my report, Mr. Chairman, is a study of an 
example of a great new water program in Kenya. It demonstrates 
the power of partnership between America's charities and USAID 
that leads to even larger partnerships with others around the 
globe. With funding from USAID, funding from a major Dutch 
organization, the Dutch Government, as well as matching funds 
from Millennium Water Alliance members, a perfect example of a 
forward-looking collaboration has been built to build against 
community resilience to drought.
    So, the Millennium Water Alliance and its members, want to 
point out, fully support the Paul Simon Water for the World 
Act, House Bill 2901 introduced today by Congressman Earl 
Blumenauer, Ted Poe, and Chairman Chris Smith, and I believe 
already 10 cosigners, if that's correct.
    This bill does not require additional budget but improves 
the way USAID partners for achieving maximum efficiency. It 
puts into the statute. We don't want to go back to the time 
when we couldn't find water. We want it in the statute where 
everybody stays focused on it, and we appreciate the committee 
recognizing the importance of that.
    We are eager to assist the committee, the subcommittee in 
any way we can to advance the great work on behalf of the 
American people, and I'll be happy to take your questions. I 
have a writeup for you in my submission about the KALDDR 
Project in Kenya which really discusses how all the things that 
I just told you about are actually being deployed just within 
one program now.
    [The prepared statement of Mr. Morris follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Morris, I look forward to reading that, and 
you will convey it to us. And without objection, all of your 
testimonies and any attachments will be made a part of the 
record. And when you said you don't want USAID to be the 
repairman, I thought what we want these programs to be is like 
the Maytag repairman.
    Mr. Morris. Yes.
    Mr. Smith. Never gets called.
    Mr. Morris. Yes, sir.
    Mr. Smith. Mr. Tut.

 STATEMENT OF MR. BUEY RAY TUT, EXECUTIVE DIRECTOR, AQUA AFRICA

    Mr. Tut. Well, I would like to thank you, Chairman Smith, 
for this opportunity. Also, Congresswoman Bass who is 
unfortunately not here, and also the member of the panel here. 
I feel fortunate enough to come share a little bit of my story. 
I think to explain what I do and how I do it, it's important to 
know where I'm from, and why I came about this line of work.
    I am, like you mentioned in my autobiography, I am from 
South Sudan. I was born there, and I was--my family was granted 
asylum in the United States. Actually, my father had a choice 
to pick between Canada and the United States. He said that 
Canada sounds freezing cold, and moved us to Minnesota. But 
we've lived in Nebraska for right now what amounts to about 15 
years. And when I was in college, a friend of mine, also a 
native South Sudanese, we wanted to go back to South Sudan and 
we wanted to support our new country coming about. And when we 
talked about going back to South Sudan and really trying to 
help, we said what do we want to do there? We really have to 
have a philosophy, why are we going back?
    And we said what we come down to is, we wanted development 
over aid. We're looking to move back to South Sudan in 10-15 
years. We love the United States, but we're moving to go back, 
so how do we create a nation that's not sustaining? We no 
longer go by we're a developing nation. What we are, South 
Sudan, is an aspiring nation, and we think East Africa 
countries are aspiring nations.
    So, what we've designed is a three-step process. First, we 
drill water wells for about 500 people, and with Aqua Africa 
what we do is we drill one water well for about 500 people. And 
just like Mr. Morris explained, our second portion is called 
Micro Democracy. And for Micro Democracy, what we do is of the 
500 people we drill for, we have the 500 people, we set out 
boxes, help them elect six members of committee to run the 
water well. And our objective in that is the people understand 
on a micro level rather than on a macro level why democracy is 
important, where it's going. And our objective is in 2015 or 
whenever we have following elections is they understand and go 
vote. They understand the applications of voting and why 
democracy is important.
    And our last portion, what we teach again using water as an 
example, water is the starting point, we teach resource 
management. Resource management we teach the people that when 
we drill a water well that pipe doesn't go to the Indian Ocean. 
That water will run out at some point, so you have to create 
policies in place in order to manage it effectively.
    Now, what inspired us to do this and why I'm telling you 
all this is because we are from South Sudan. I was born in East 
Africa. Jacob Khol was born in East Africa, Buey Ray was in 
East Africa. What's unique about this point in history, we feel 
in East Africa is no longer are we just willing to help East 
Africa, willing to help where we were born, is we're able to.
    I've been here in the United States for 15 years. I've 
gotten a tremendous education in the United States, and the 
people have been--there's been a tremendous amount of capacity 
building. Now I'm ready to go back to South Sudan. And I think 
what we're missing right now in a lot of this discussion is why 
don't we have an East African or anywhere we're helping 
aspiring nations from the beginning process to the end process, 
from the design phase, implementation phase, and execution 
phase? And when we're looking at it, what we wanted to 
accomplish at this point with foreign aid, and everything else 
going on is we want Africans that are from there that have 
experienced it.
    I was fortunate enough--I was unfortunate not to have a 
sister, so I have to drag water back and forth with my mom. But 
we what we are trying to accomplish is we're trying to get 
Africans, I mean, wanting to go back and help--are able to go 
back and help our--and have the capacity to help. And the 
things that's changing is that's us. I mean, when we look right 
now, I have curly hair, dark skin, as my mom would attest 
attractive feature but, I mean, what we're saying at this point 
is we're ready to go help. And passing--I mean, concentrating 
on water policies looking forward, I think it's not just 
important, it's critical to have us on the table, to have us 
see where we're going to--what we're going to be doing, because 
that inspires ownership. And that inspires us to take it on 
fully.
    And, again, I'd like to thank the subcommittee for inviting 
me to be able to share my story, and I'll open it up to any 
questions.
    [The prepared statement of Mr. Tut follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you, Mr. Tut. I appreciate that very much.
    I wonder if you or any of our panelists are aware of the 
capacity that might exist in this country that is being shared 
with regards to universities, training people in water 
management, or at least courses that can be learned online. Is 
that readily available to someone in Kenya or South Sudan who 
might have access to a computer, or could get to a college here 
or somewhere else; is that something--are we trying to build up 
that intellectual capability that then can be applied to 
implement these strategies?
    Mr. Morris. I might address that. The Living Water 
International which we founded has put chapters basically on 
college campuses, and the students--through student demands, 
Student Engineers Without Borders, et cetera, have worked their 
way into engineering programs. And the students are actually 
being trained to go out, go to other countries.
    I had the opportunity to work with Oklahoma in establishing 
the OU Water Center, which now awards the first ever United 
States World Water prize. And it's headed by Dr. David 
Sabatini. Every 2 years there is a meeting there. People are 
brought in from different countries, we raise funds, if you 
will, for those to come to the conferences and learn from what 
the universities are doing. They're doing major work in some of 
the issues that we face with contaminated water that we find, 
so it's fabulous.
    Gary behind me here with water.org is with University of 
North Carolina. They have a fabulous program in water, so a 
number of universities. Southern Methodist University has 
picked up on it, Emory University has picked up on it.
    Mr. Smith. How long of a study does it really entail in 
order for someone to become at least proficient in putting 
together a clean water----
    Mr. Morris. Well, when you say--these are people getting--
if you look at some of the young USAID is hiring, they're 
getting engineering degrees in hydrology, et cetera, so these 
are full 4-year degrees.
    Mr. Tut. Well, in our--my degree is in actually in 
political science, graduating from the University of Nebraska. 
When we began Aqua Africa, in Aqua Africa in our 3 years of 
operation now, we've served 4,500 people. We've drilled nine 
wells in South Sudan, and the--I mean, I didn't get that 
through getting my engineering degree. A lot of, I think, the 
information we need is readily accessible. I think the most 
important thing is identifying in which area that we're going 
to be working in, first of all, and then identifying those 
needs. And then once the need is there, the resources to 
facilitate that, I think, are readily available as long as 
we're able to access it. And I think it's there.
    Mr. Oldfield. Mr. Chairman, if I might add my two cents to 
that. You've asked a question that our intelligence community 
is concerned about, as well. Last year, 2012, there was a 
national intelligence estimate on global water security which, 
as you know, suggested that global water challenges are likely 
to pose security threats to this country over the next decade.
    The one key finding that's interesting and aligned with 
your question is that the intelligence community found that 
Americans are expected to lead on this issue. We know how to 
solve these problems, and Americans in both their public and 
private capacity are expected to lead.
    I'm going to do a little more homework on your question and 
figure out exactly what this country is doing in its private 
capacity. I am more familiar with what a couple of multilateral 
organizations are doing on that.
    What I'd like to highlight is what USAID, in particular, is 
already doing to share not just best practices that they're 
finding in their programming with many of the organizations in 
this room, but come together and share emerging practices, or 
dare I say worst practices not just in water, and sanitation, 
and health programming, but in programming across the 
development portfolio. Our Government is making strides in that 
direction, and eventually I would hope, and it may already be 
happening, that information is going to get out into developing 
countries, in Africa, Asia, and Latin America fully cognizant 
that online education is tricky, and that no one solution is 
the same for one community to the next, as you've heard here 
today.
    Mr. Smith. How realistic is it that there will be a real 
growth in the area of large water treatment systems, as well as 
those dealing with sanitation? The cities, are they more likely 
to be the places where that's going to emerge sooner rather 
than later? And I asked this earlier of our earlier panel, and 
I would ask it of you, as well. You know of the lessons learned 
from the Clean Water Act, the Safe Drinking Water Act, and all 
of the contaminants that we now look for. In my opinion, 
there's still a whole lot more we need to be looking at, but 
there at least 90 contaminants. How specific do they get in 
looking for those kinds of toxins and other contaminants that 
are contained? Do they have that capability in some places, but 
not in others? Does South Africa have it? It's not as likely to 
be, obviously, in South Sudan as it emerges from all the 
problems of war?
    Mr. Morris. Most everywhere I have been, the government 
does have government testing labs, and they--part of the 
oversight of the government is doing water quality testing. 
Some communities who get well to do enough buy their own 
equipment for testing. Clearly, we probably have more 
contaminants in this country than people experience in the 
developing world because we've put in manufacturing runoff, et 
cetera. And all of the pills that get flushed down toilets in 
America, et cetera, so it's a bigger problem here but it's 
something that from here we need to recognize what--that it 
will happen there.
    There are some remote sensing and testing technologies now 
that can actually be inserted in pipelines to test the water. 
Kind of like the pigs that they run through the pipelines to 
make sure there's no--the oil pipelines with no leaks, so there 
are remote sensing that can be done, and cities are using that 
because it's a terrorism issue, as well.
    Mr. Smith. You know, I find when I travel throughout Africa 
and I find this in many parts of Europe; I was just in 
Istanbul. I was admonished not to drink the water, to drink 
bottled water. I remember being in Leningrad in the early `80s 
and it hasn't changed now that it's St. Petersburg; you're 
admonished again, or asked not to drink the water, to be very 
careful.
    I'm wondering, are they looking for enough of the 
contaminants? I mean, is there a register that when you're 
talking to them you can refer to and say you need to be looking 
for this, or looking for that? And in answering that, a few 
weeks ago we had a hearing on the ever present and seemingly 
worsening problem of tropical diseases, particularly those that 
are neglected. And there was particular emphasis played on 
deworming, and the fact that we're doing some very good things 
on deworming, but it is such a huge universe of hurt and that 
we're not doing enough. About 1 billion people, the estimates 
are, have worms, and one of the takeaways from the hearing was 
that it makes women more susceptible to HIV/AIDS. It leads to 
anemic children and low birth weight children. That trip to 
Istanbul was with a doctor who served in Ghana and he said that 
he had an experience where a woman brought her son in because 
his urine was clear, and she thought he was sick because all 
the other kids' urine was red or pinkish from the worms. And 
I'm just wondering, you know, if we really fully understand 
that clean water that doesn't have worms and other kind of 
parasites inhabiting, it will lead to a lot of benefits on 
those issues, as well. I mean, water-borne worms are a problem.
    Mr. Morris. I've walked into a community using hand dug 
wells, and dropped a bucket down, lifted the bucket up, put my 
hand in the bucket and counted the worms in my hand. And this 
was the water that the people were using. And water that is 
hand dug, basically you're only digging down to the very first 
underground river, and that is often what we call latrine 
water, or refer to as latrine water. That's where the 
contaminants will go and disperse, so generally we will drill 
through and case through that type of thing. When we're putting 
in water, we're putting in sealed wells, sealed systems.
    Mr. Smith. How deep do you have to go?
    Mr. Morris. More than 20 feet, just more than 20 feet 
because the earth acts as a natural filter. In the drilling 
process you contaminate the aquifer. Then you've got to cleanse 
the aquifer, and when you're cleansing it you often import a 
sulfur that sometimes the odor becomes offensive until that 
clean process takes place.
    But I think you're talking about maybe more in the urban 
areas, and where cities are growing, as we were just talking 
about earlier. And in the cities the main problem that we're 
seeing is that there is overuse of the water. If you're the 
mayor of Addis Ababa you've got 10,000 people moving into your 
city a day. There is no place for them to live, there's open 
defecation, they're going in the rivers, they're polluting 
everything around. And you don't have enough water to deliver. 
So, what happens is the old city water pipes that were built 
for a city of a certain size, there's not enough water to push 
through them, so if the pipes are not pressurized, then you get 
contaminants seeping back in the pipes, and then you get some 
bad water in the cities which is probably the kind that 
Congressman Stockman partook of.
    Mr. Stockman. Will the gentleman yield briefly? He's not 
telling you also that during that hearing we had specialists 
actually come up from Houston, and a lot of the tropical 
diseases--and you'd be interested in this, Malcolm--were seen 
in Houston. And I was shocked to hear there's a reintroduction 
of tropical diseases in Houston. During the hearing he was 
covering a broad spectrum of different things occurring in our 
own city.
    In fairness, Mr. Chairman, I've known the gentleman now for 
over, I guess, 30 years, 25 years. I knew his father, who was 
very active, and testimony to Malcolm, he could be doing 
anything he wants in the world. And I am thankful that you 
chose to save lives, and to work in this area. You're doing a 
good job. Thank you. You could be doing--you could be on a 
yacht; instead, you're giving your time to this cause, and I 
really appreciate it. As I said, we were delivering medicines 
to Africa, and the need is so great, and the people are so 
grateful when you do that, so I really--I just want to 
acknowledge his efforts and what you've done, and really 
appreciate it. I'm excited that we're going to do this. As 
always, your work is phenomenal, I appreciate it.
    Mr. Smith. Thank you. Any questions?
    Mr. Stockman. Well, one of the questions I had is more of 
an interest in Africa. And you were saying 20 feet, but is that 
true? What part have you been in Africa, where do you drill 
most of your wells? And I understand some people use the merry 
go round method to get water, you know, where they use that. 
What methods do you use?
    Mr. Morris. Well, the merry go round is really just a pump. 
That's once you've drilled your well. But wells in Kenya, 
you're a mile high city sitting on top of granite. We're 
putting in 1,100 foot wells. You know, in other places, India, 
you'd be putting in 120 foot wells. In Nicaragua, you'll go 
through a 20 foot, 50 foot, 80 foot, 120 foot aquifer. You'll 
find rivers at all those different levels.
    Mr. Stockman. But are you using the same technology they 
would if you were drilling for oil? Is that why--I mean, 
Houston has such a natural abundance of----
    Mr. Morris. Yes, it's the same process, different size rigs 
depending on how deep you're going.
    Mr. Stockman. Do you have companies that step up and say, 
``Hey, we know you're involved in this. We want to help you,'' 
and offer their assistance at all?
    Mr. Morris. Yes. Well, I know now that we have oil industry 
that want to do something in return to the countries, to 
benefit the countries where they're doing oil drilling. And one 
of the greatest benefits they find being requested in those 
countries now is water.
    I will tell you that under the Foreign Corrupt Practices 
Act, you're not supposed to pay somebody off, so to speak, to 
get a drill contract, and it seems like if they are asking you 
for something, somebody wants to give money to their brother-
in-law, so they've come to Living Water and said can we give 
you the funds and you go do the projects?
    We've been called on by the United States Government to go 
in and do projects where they needed to--had committed to do 
certain water programming, just said please program it for us.
    Mr. Stockman. In what country have you drilled the most 
wells for water, would you guess?
    Mr. Morris. Well, that would be--at Living Water we've 
drilled about 14,000 now. And at the Millennium Water Alliance, 
the 13 member organizations are now serving over 100 million 
people a day.
    Mr. Stockman. Wow, that's phenomenal. And I'm not being 
disrespectful, so--and are you deeply involved, no pun 
intended, with the people?
    MR. Oldfield. Thank you, Mr. Stockman. First of all, I'd 
like to second what you just said about Mr. Morris here, a big 
fan, and he could be doing anything he wants to, so well done, 
Mr. Morris.
    We are a non-profit advocacy initiative, and we are, to 
answer you technology questions, we are for whatever the most 
appropriate solution is in any given part of the world, whether 
it's Africa, Asia, or Latin America. We look for technical 
appropriateness, technical sustainability, we look for 
environmental sustainability, we look for financial 
sustainability, we look for socio-cultural sustainability to 
make sure that a project in South Sudan is appropriate for the 
South Sudanese, and that it will be maintained technically in 
local hands with decentralized ownership, that the individuals 
who benefit from that will be able to support in financial 
terms its operations and maintenance, and to make sure that, 
quite simply, if you're using chlorine to disinfect water, to 
make sure that people still use the water even though it tastes 
like chlorine, or to make sure that when you're purifying river 
water that the local individuals in Guatemala or Vietnam aren't 
concerned about socio-cultural things like angering the river 
god. All of these are true stories.
    We are for pit latrines that are used for their intended 
purposes, to properly dispose of human waste rather than to be 
used to store cow dung, or bicycles, or in some cases to live 
in during the rainy season because that might be the only 
physical structure in a village that holds up. So, we're in an 
interesting spot as a neutral advocacy organization to be for 
only those solutions which are technically, financially, and 
socially appropriate in that environment.
    Mr. Stockman. You mentioned South Sudan. I was there in 
Juba, and I actually went on foot, which they told me was 
highly unusual. And one of the things they were showing me when 
I was there is that North Sudan, or whatever, had taken and 
poisoned their wells, and also poured concrete down them. And 
not just one well, a lot of wells. Are you from Juba?
    Mr. Tut. I'm not from Juba, but I am from South Sudan.
    Mr. Stockman. Okay.
    Mr. Tut. State North Sudan, or----
    Mr. Stockman. You have a beautiful country, beautiful 
people. I appreciate the hospitality you showed us.
    Mr. Tut. Well, great. When were you there?
    Mr. Stockman. A year ago January.
    Mr. Tut. Okay.
    Mr. Stockman. And another thing I saw which is tangental, 
if the chairman will grant me a little bit of leeway here, is 
that at some time I think they need to see how you play 
volleyball, because it's a combination of soccer and 
volleyball. The most amazing thing, but getting back to the 
wells, it was very upsetting to see the number of wells that 
could be used. I don't know, is there a way to rehabilitate a 
well that's been sabotaged like that?
    Mr. Tut. Well, if I could take this one. Honestly, when 
you're looking at a well that's been sabotaged in that manner, 
it's very difficult to--because, I mean, it's much more cost-
effective to build another one. Right now, when you're looking 
at South Sudan and the needs, and not just South Sudan but East 
Africa, in these drillings projects so you have, I mean, 
advocacy groups, and then you have groups that are getting 
others together.
    What we need to do is build a capacity of organizations 
that are from there, working there, and honestly understand it. 
We drill about 50 meters into the ground. That's where we think 
is the safest. I mean, you have salt content that goes high 
whenever you're drilling, and the water is--I mean, has really 
high salt content. People don't want it. And that goes into the 
testing thing that--the testing methods Chairman Smith brought 
up earlier. What kind of testing do we employ?
    We employ--we work with the local government to see what 
the standards are. And what the unique thing is, we remember 
what it was like when we were kids. I remember when I was eight 
drinking the water, what I liked and didn't like. And I know 
what would prevent me from drinking it versus not. So, when we 
work in this areas, we understand the people. I mean, they know 
us, they see us, and that's what makes us effective in the 
manner. And that's why it's very important for Mr. Oldfield and 
Mr. Morris, I mean, in the areas they work in, building our 
capacity to be able to do what we are doing in those areas.
    Mr. Stockman. I was shocked at how many wells. I mean, they 
were showing me all the wells that were, you know----
    Mr. Tut. That's astonishing.
    Mr. Stockman. Yes. It was really amazing.
    Mr. Tut. Very astonishing.
    Mr. Stockman. We also gave out 200 pounds of candy. We 
created a new industry, dentistry.
    Mr. Morris. Well, this--on one of the questions I was 
thinking about, as John was speaking, about the social issues 
and different things you face. Fluoride is fixed by using some 
ground up bones, but if you go to one country you don't want to 
use ground up pig bones, and you go to another country you 
don't want to use ground up cow bones. So, I mean, it's just--
it gets very, very detailed to be a part, as Mr. Tut was just 
saying, of what is the local posture. You know, we don't put 
the same technology in every country. One country likes French 
equipment, one country likes another. It's okay, as long as the 
whole country is getting toward a standard and then people can 
learn to maintain and do for themselves.
    Mr. Stockman. With that, Chairman, I yield back.
    Mr. Smith. Just a couple of final questions, and then 
anything you want to add as we close.
    First of all, I do want to note that Christian Holmes, the 
Global Water Coordinator, has stayed. I've chaired maybe 450 
hearings as a Member of Congress, including as Veterans Affairs 
chairman. Usually, the administration people leave and never 
listen to the panels that follow, so thank you for doing that, 
for caring so much to hear what people, the NGOs and others 
have to say. That speaks so well of you. Thank you.
    We just had a roll out of an idea with a number of NGOs 
last week on the whole issue of electrification, and the need 
for electrification in Africa. And I'm wondering how you 
mentioned in your statement, Mr. Oldfield, to push the 
administration, one of your five points, harder on linking 
water and sanitation with other important development 
objectives whose success depends on safe water. Well, if you 
just drop who depends on, there are other developments. I mean, 
things work synergistically when you've got a larger strategy. 
How will electrification help? It seems to me, and you also 
made a point in your statement, I thought it was great, about 
visiting, and encouraging Members of Congress and all of us to 
go see a water project. I've done that many times, but one time 
I was actually at a refugee camp in Darfur when the water just 
came on line while we were there. I don't know if they timed 
it. I don't think they did. And it was amazing how people were 
euphoric. A lot of water was wasted in the process because it 
was being thrown around and dumped, because people were just so 
happy to be able to turn that spigot. I was giddy, too, so your 
point is very well taken there.
    But about this working side by side with other development 
goals, if you might want to expand upon that.
    Mr. Oldfield. Sure. And our co-panelists will have lots to 
say on this, as well. Let me just suggest one thing. It's an 
interesting question you asked about electrification. The sound 
bite is this. Development is about a whole lot more than water, 
but it's never about less than water. I'm not here to say that 
anything is more important than anything else, but turn out the 
lights in here and see how it goes, or let's try to live for 
the next few days without safe drinking water. It really gets 
back to the primacy of water and basic public health to human 
existence.
    Specifically to answer your question about electrification, 
that's part of the solution. Innovation, science and 
technology, research and development, you bet that's part of 
the solution. You know, I've seen some UV systems that use less 
and less electricity, they narrowed the spectrum down to more 
cost-effectively purify safe drinking water by irradiating it. 
There are a lot of great solutions.
    My concern about technical solutions in the water sector is 
simply that we don't want to go overboard on that. 
Desalination, of course, is part of the answer. But you know 
what, instead of focusing on really high tech desalination 
equipment and multi-billion dollar installments, I'd suggest 
that most parts of the world need to take more advantage of the 
biggest desalinator out there, which is the sun. Let's 
desalinate water by evaporating it and let's capture that water 
via rainwater harvesting. We've all agreed here today that 
there's no silver bullet for this. I would suggest to you that 
simple rainwater harvesting techniques and a simple improved 
pit latrine may come as close to a silver bullet as anything 
we'd have.
    If I could answer your NTDs question, as well: Solving 
health challenges is about much more than water, but never 
about less, once again. NTDs are complicated. They're neglected 
for a reason. Water clearly came out from Dr. Hotez and the 
others' earlier testimony. Every single one of those people, 
including the doctor and the nurse on your subcommittee here 
understand that water is medicine, that toilets are medicine, 
that hand washing with soap is medicine.
    We're not here to say, and I'm particularly not here to say 
that NTDs are not important, and should continue to be 
neglected. Absolutely the opposite, do everything you're doing 
to support that. Also include diarrheal disease as a neglected 
tropical disease, which it certainly is, and it's easier to 
pronounce than many of the others. And all of these are 
solvable by safe drinking water and sanitation.
    Mr. Smith. Thank you.
    Mr. Tut. Well, my grandmother from--she lives in the 
northern part of Ethiopia in the mountains, my mother is 
Ethiopian, she called for the first time last year to see if 
I've been eating enough. The remarkable thing about it is we 
never had phone towers. She didn't have a way to access 
electricity until an NGO came and gave them a charging system 
through solar charging.
    But to get back to your question, if this is something we 
could compile, so for Aqua Africa this year we're building a 
water tank. And this water tank is going to have the capacity 
of 50,000 liters, six distribution points with two going one 
clinic, one school, four areas of distribution. And in that 
we're including a solar system to where people could charge, 
and actually charge people money to be able to charge others.
    Compiling these developmental efforts advances it from just 
aid to development. I mean, that's very important. To stay 3 
more hours and to be able to study changes the people's lives. 
I wasn't able to read when I was a little kid. Now, if I had 
the opportunity, would I? I mean, I would have given it a shot, 
you know, so it's--to say that we could compile these things 
all together, I think is an amazing way of delivering aid and 
making it development.
    Mr. Morris. Let me just say a couple of quick things. In 
Guatemala we put in a--we try to meet the community's needs. 
You don't want to go in and do something to a community, you do 
it with a community. And in interviewing the community they may 
want the least costing intervention. They don't have 
electricity, et cetera, so that might be something like a hand 
pump. But when we're in Guatemala, we always want to deal with 
the local government and make them a part of it because they're 
going to inherit this, ultimately. So, the mayor came and so we 
had the mayor speak each day. The second day he came, speak 
again, I said hey, we drove under an electric line. I said how 
far is that from here? And he said well, it's only about a 
quarter of a mile as the crow flies, and I said well, what 
would it take to get electricity to this community? I said 
these people are already asking, the bore hole is here, going 
to put a hand pump on it, but we could pull this hand pump 
right off the top and you can drop an electric pump down there, 
people can have distribution right to their homes.
    Well, other people kind of overheard that so the mayor said 
well, we could do that pretty quickly. He said matter of fact, 
within 6 months we'll have electricity, and these people went 
home and got shovels, they're digging to the well, going to put 
their pipes in already. And by the next day he came and he was 
bringing people to put in a health clinic in this community 
because he said this community's got water now, and he says 
we're in the process of bringing electricity. We were only 3 
days there, you know. So, it was amazing to see.
    And in Malawi, Living Water trained water for Malawi. We 
went to an area west of the Longway about 60 minutes out, and 
began doing water programs there. I think we're serving a 
couple of million people there now. And the persons that we 
began that with were specialty and women, and child infant 
mortality, and we built a hospital there now. And we just 
signed a partnership with Baylor Med in Mr. Stockman's hometown 
here, so it's now the Baylor Med Child Legacy Intervention. 
They have built in Malawi out in the boondocks a total hospital 
infrastructure, operating rooms, all this. It is the only 
medical facility in the country that we know of that has non-
fail electricity. It's got solar, it's got wind, it's got 
battery storage, and it's got generator backup, and no 
hospital--it's now becoming the center for the new residency 
program for all of Malawi right out in the middle of nowhere. 
So, electricity is extremely important, very important when 
you're in the middle of surgery to have electricity. And I 
don't know that there's a lot of synergy with water, and with 
what we do, but we clearly make use of it when it becomes 
available.
    Mr. Smith. I just have one final question; Mr. Stockman may 
have some additional. How well do you think, and please be 
absolutely candid, do you think we, the U.S. Congress, 
prioritizes clean water and proper sanitation? What about other 
European countries, the European Union, for example, and other 
donor nations, the philanthropic community? I mean, there are 
other things that are seemingly less mundane, but perhaps not 
as important, where the philanthropic efforts of the Gates 
Foundation and others would rather put their dollars. I mean, 
are we all doing enough? It would seem like we're not, but I 
asked this question earlier about the unmet need, you know, how 
big is that gap?
    And, finally, a lot of the leaders start at the local level 
like mayors, and it happens here, too, many of us go from being 
mayor, councilman, assemblyman, to actually being in Congress, 
and then indictment, no. But a lot of people at the lower 
level----
    Mr. Morris. Not this group.
    Mr. Smith [continuing]. End up being Presidents, end up 
being international parliamentarians, and I'm wondering if the 
lessons learned about the importance of clean water carry over 
so that they bring that vision to the nation?
    Mr. Morris. I have to say that if you look at anybody in 
the world, we've got an immigration debate going on now, 
everybody in the world wants to come to America. I mean, I 
don't know anybody who is offered an opportunity to come to 
America says no, no, we don't want to go there. People want to 
come here, and when I began working, as I said, a more national 
level, and going to--I spoke at the World Water Forum in 
Mexico, I've been around in global meetings, but I was 
surprised at the lack of leadership by America. That's why I 
went to USAID and said, ``What are we doing?'' The change that 
I have seen, I mean, we might all sit here and say oh, we're 
not doing enough. But today when you ask the world who's 
leading, it's not Japan anymore, it's the United States. USAID, 
the stature of the water team, the great reputation, like I 
said, it's enhanced. They helped the MWA get started, and now 
even in places where they're not having to fund it, the MWA is 
being funded by other organizations. And Mr. Gates is very 
actively involved, and he's really focused on sanitation. Mr. 
Hilton, very actively involved. He's really focusing more on 
the water, so they kind of work hand and glove.
    One thing we forgot to mention today, and that is soap. Mr. 
Gates funded a major study in Kenya, a 5-year study. I think it 
was $9 million, and at the end of that $9 million--we talk 
about people coming to the cities, the cities building and so 
forth, and water does attract people. Well, when you bring more 
and more people together, you increase the changes of water-
borne contaminants and people gathering together in that place. 
And that's what happened, they provided soap for like the first 
3 years of the study, and then didn't provide money for soap. 
People quit using soap. Well, they'd come together, they 
learned to not open defecate. Everybody is coming to the same 
place, and actually disease went up, so you have to have soap. 
So, that $9 million study; soap, very important. And you've got 
to keep it on your hands for 20 seconds.
    Mr. Smith. You mentioned Mr. Hilton. He was asked on a TV 
show once what his best advice would be. He said put the shower 
curtain inside the tub. That's Barrett Hilton. Conrad Hilton 
said it.
    MR. Oldfield. Thank you, Mr. Chairman. Just a quick story. 
A couple of years ago I was in Rwanda up country visiting a 
site, a project of a group called Water For People based here 
in the United States in Denver. It's called Le Pays des Milles 
Collines, the Land of a Thousand Hills, and I was on top of one 
of these hills with 12 engineers looking down into the ravine 
figuring out where to site a pumping station. And I'm not an 
engineer, but you've got 12 engineers up there, you might 
imagine there were 12 different ideas about where to site this 
pumping station. That's not the point. The point is that each 
of these 12 engineers was Rwandan, and each of these 12 
engineers was having this vigorous technical debate way over my 
head in Kinyarwanda, the local language. The front end 
catalytic support provided by the United States, a private non-
profit in this instance, was the secret to that success. We're 
not out there just drilling wells and poking holes in the 
ground, and digging latrines. We're out there strengthening 
these organizations' capacity.
    To answer your question, are we doing enough? Well, the 
Water for the World Act that you've sponsored and introduced 
this morning with Mr. Blumenauer, and USAID's new water 
strategy get it. You get it by asking your question about 
quality versus quantity. Quality always lags quantity. It's 
pretty easy, 20 liters per person per day of water, but you get 
into the quality concerns, particularly in urban environments, 
particularly when you're dealing with cholera, that's the right 
question to ask. And the Water for the World Act, and the Water 
for the Poor Act, and the water strategy are steps in that 
direction.
    The second quick point I'd mention is you asked something 
about rule of law, about democracy and governance, and water as 
a means to that end. I want to highlight the work of a group 
called the AVINA Foundation which is a private philanthropic 
initiative active throughout the Western Hemisphere in this 
instance, by strengthening community water boards, community 
water user associations, building their capacity to manage and 
solve their own water and waste water challenges.
    The work of the AVINA Foundation and its many partners is 
interesting, not simply because they're helping solve water and 
sanitation challenges in a decentralized fashion, it's 
interesting because that work is strengthening the social 
contract in those countries. That work is strengthening the 
role of women in these water community associations to take 
charge of their own destiny.
    I look at every village water committee as a primary school 
for democracy, and that's something that is also envisioned by 
the water strategy and Water for the World Act. This isn't just 
water and sanitation, but it's water and sanitation as an entry 
point into the health objectives you're looking forward, into 
the primary education objectives, into the NTDs solution, and 
so on.
    Mr. Smith. Yes, just I do have one final suggestion/
question. And it would be a takeaway for Mr. Holmes, as well. 
I've been here long enough to know that many a good idea 
doesn't get passed. I had 30 plus significant bills, including 
five Veterans bills, die in the Senate. They have very arcane 
rules, people put holds on things. The International Megan's 
Law died 3 years ago, which would have been a noticing 
provision for convicted pedophiles before they travel abroad. 
And one of those that I got passed was to establish an 
obstetric fistula repair program and prevention program, passed 
in the House, failed in the Senate. I put it into a larger 
bill. Well, I went to USAID and asked Dr. Kent Hill if he could 
just take the blueprint and do it administratively. He did. We 
have now effectuated well over 20,000 obstetric fistula repairs 
which--and the money has grown very significantly. And I'm just 
wondering, you know, if for some reason--and we'll push hard to 
get this bill passed--if it doesn't pass, it could still serve, 
I would think, as a blueprint. There may be a few authorities 
that need to be conveyed to USAID, but I think we ought to be 
thinking, take it, obviously work it, you know, and improve 
upon it any way you think fit, but it could become the 
blueprint right now. It doesn't have to wait for enactment, 
because I've seen it happen many times. The obstetric fistula 
is just one example of many, others have had their bills that 
went nowhere, but they were a good idea, and all of a sudden 
the administration said hey, ``We can do that.'' We can do it. 
And I'm just wondering if that's something that you guys have 
looked at, because I think we should be working to try to get 
it done even if the bill runs into a snag somewhere over in the 
Senate. Notice I said not in the House.
    Mr. Morris. It seems like USAID is already working in that 
direction. And you made a beautiful comment about Chris Holmes, 
and he's still here. I haven't looked yet back, is he still 
here? And he's not here because you're here. Chris Holmes will 
answer his phone and he wants to know how we can get to where 
we want to go. And if it's 6 o'clock at night, or 8 o'clock at 
night, I mean, he will answer his phone. He calls you back. 
This is very, very important to him. We have never had such a 
great working relationship with USAID. And I would say that the 
greatest thing that the House might do now is just agree to 
consent with the Senate bill of $405 million instead of $315 
million.
    Mr. Oldfield. Yes. Thank you, Mr. Chairman. Let me just 
quickly respond to that. Yes, the Water for the World Act is no 
marker legislation. We expect this bill to sail through your 
subcommittee, and the Foreign Affairs Committee, naturally, and 
send it over to the Senate and see what happens. But a lot of 
what's in that bill--not a lot, I shouldn't say, but some of 
what's in that bill codifies the progress that the 
administration is already making on this.
    Chris Holmes is a great example. The Global Water 
Coordinator is not in the statute, but it's a good idea, and 
the administration made it happen, the same with your work with 
obstetric fistula there.
    The Water for the World Act, with that said, is very 
additive, and my personal hope on behalf of the many people 
who've helped me with this testimony, is that it will increase 
the pro poor focus of the administration's efforts to fully 
implement the Water for the Poor Act. And I would personally 
ask, as an advocate for pro poor water and sanitation needs, 
why not 100 percent of the funds appropriated under the Water 
for the Poor Act to the bottom 40 most water and sanitation 
poor countries in the world? I'm sort of picking numbers out of 
the air, but is that unreasonable? I don't think it is, or 
frankly I wouldn't be good at my job.
    But secondly, perhaps more transformatively, the 
effectiveness of this work, the capacity building that we've 
all talked about here today, the increased monitoring, and 
evaluation, and resolution, and learning, particularly after 
the technical end of the project is over, that's what's 
envisioned in the Water for the World Act. That ribbon cutting 
ceremony that we all love so much is not the last stage of the 
project. That ribbon cutting ceremony is the first important 
event in that project. The next most important event is what 
happens when something breaks 2 years down the line? Echoing 
what Mr. Morris said here, the answer is not to call USAID, 
much less the subcommittee chairman. The answer will be found 
locally, technically, and financially. So, I do think it's 
additive, and I certainly push hard for your support on that.
    Mr. Tut. Well, looking at the Water for the World Act, and 
I'm looking at my panelists here sitting next to me here, for 
Aqua Africa, we're a small organization right now. We have 
three staff members, two in the United States, one in South 
Sudan trying to advance. So, what we need going forward is 
capacity building, but who do we go to in order to get the 
support capacity building? And we're looking at now USAID in 
terms of experience, in terms of how much they've accomplished, 
and looking at my fellow panelists here. That's where we seek 
the support. And going off of what you said, I mean, and what 
Mr. Morris was saying earlier, we don't want 1-800-HOTLINE 
calling to USAID trying to solve their problems. We're going to 
be solving the problems.
    In order to do that, we need to be--we need to have the 
expertise. We need to have the capacity building, and this is 
what is going to allow us to do.
    Mr. Stockman. We've got like 5 minutes to go, but I'll just 
say this real quick. I appreciate all your work, appreciate 
your work; and Malcolm, we'll make sure the bill passes in the 
Senate.
    Mr. Smith. The hearing is adjourned.
    [Whereupon, at 5:32 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
